No. 20A84
IN THE SUPREME COURT OF THE UNITED STATES
______________

REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner,
v.
KATHY BOOCKVAR, SECRETARY OF THE COMMONWEALTH OF
PENNSYLVANIA, ET AL.,
Respondents.
__________

Application from the Supreme Court of Pennsylvania
(No. 133 MM 2020)
________________

OPPOSITION OF THE PENNSYLVANIA DEMOCRATIC PARTY
RESPONDENTS TO EMERGENCY APPLICATION FOR INJUNCTION
PENDING CERTIORARI REVIEW
________

Clifford B. Levine
Alex M. Lacey
Dentons Cohen & Grigsby P.C.
625 Liberty Avenue
Pittsburgh, PA 15222-3152
(412) 297-4900
Lazar M. Palnick
1216 Heberton Street
Pittsburgh, PA 15206
(412) 661-3633
Kevin Greenberg
A. Michael Pratt
Adam Roseman
Greenberg Traurig, LLP
1717 Arch Street, Suite 400
Philadelphia, PA 19103
(215) 988-7818

Donald B. Verrilli, Jr.
Counsel of Record
Elaine J. Goldenberg
Ginger D. Anders
Rachel G. Miller-Ziegler
Jeremy S. Kreisberg
Munger, Tolles & Olson LLP
601 Massachusetts Ave. NW, Ste. 500E
Washington, DC 20001-5369
(202) 220-1100
Donald.Verrilli@mto.com
Teresa A. Reed Dippo
Munger, Tolles & Olson LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4000

Counsel for the Pennsylvania Democratic Party Respondents

RULE 29.6 STATEMENT
Pursuant to Rule 29.6 of the Rules of this Court, Respondent Pennsylvania
Democratic Party states that it has no parent corporation and that there is no publicly
held company that owns 10% or more of its stock.

i

INTRODUCTION
The Republican Party of Pennsylvania’s (“RPP”) emergency application
requests that this Court issue an injunction pending certiorari review that would
direct county board of elections officials “to log, to segregate, and otherwise not to
take any action related to mail-in or civilian absentee ballots” received between 8 p.m.
on Election Day and 5 p.m. on November 6. Application 11. The Pennsylvania
Democratic Party Respondents agree that such ballots should be logged and
segregated. But the Pennsylvania Department of State has already issued guidance
directing county boards to do just that. There is no reason to believe that guidance
is not being or will not be followed—and RPP offers none. As for RPP’s request that
no other “action” be taken with respect to these ballots—i.e., that county boards not
canvass and maintain separate counts of these ballots—granting this relief is in no
way “necessary to preserve this Court’s jurisdiction,” id. at 5, and indeed could both
prevent this Court from being able to determine whether its resolution of this case
would have any bearing on any election and cause substantial disruptions to the
Commonwealth’s elections.
BACKGROUND
On October 28, the Pennsylvania Department of State issued guidance to
county board of elections officials. See Attachment to Letter of Secretary of the
Commonwealth (Oct. 28, 2020), Republican Party of Pa. v. Boockvar, No. 20-542 (Oct.
28, 2020) (“October 28 Guidance”). The October 28 Guidance directed county boards
to “ke[ep] separate and segregated” mail-in and civilian absentee ballots received

1

between 8:00 p.m. on Tuesday, November 3, 2020 and 5:00 p.m. on Friday, November
6, 2020 “from all other voted ballots.” October 28 Guidance at 2; see also ibid.
(requiring county boards to “maintain an accurate log of the date upon which” ballots
received in the challenged window “w[ere] delivered by the USPS” to the county board
of elections). It also instructed that “county boards of elections shall not pre-canvass
or canvass any mail-in or civilian absentee ballots received” in the challenged window
“until further direction is received.” Ibid.
That same day, counsel for RPP emailed county boards of elections
acknowledging that it “expect[ed] that each county board of elections will follow this
guidance.” A.117. It nonetheless requested that each board of elections confirm by
email that it intended to follow the guidance. Counsel for RPP requested a response
the next day—by 2 p.m. on Thursday, October 29. See A.117. Forty-two boards
responded, and all of them confirmed that they were following the guidance.
Application 4.
On November 1, the Pennsylvania Department of State issued further
guidance, as the October 28 Guidance had contemplated. See A.113-116 (“November
1 Guidance”). The November 1 Guidance stated that “[a]ll directions in [the October
28 Guidance] concerning the segregation and logging of ballots received during this
defined post-election period continue to apply.” A.114. The November 1 Guidance
gave detailed directions for canvassing those ballots. See A.114-116. The document
requires county boards of elections to “count, compute, and separately tally the ballots
approved for canvassing.” A.116 (emphasis added).

2

On November 6—over a week after counsel for RPP requested that county
boards confirm their compliance with the guidance and five days after the November
1 Guidance issued—RPP filed the present application for an emergency injunction.
The application contends that the guidance is insufficient for two reasons: First, it
argues that the guidance is not binding on county boards of elections and they “may
choose not to follow” it. Application 4. Second, RPP notes that “the Secretary has
reserved the right to change her guidance,” such that there is a risk that the Secretary
“may issue new directions in the absence of an order from this Court.” Id. at 5.
Also on November 6, Justice Alito entered an administrative order stating that
“[a]ll county boards of election are hereby ordered, pending further order of the Court,
to comply with the following guidance provided by the Secretary of the
Commonwealth on October 28 and November 1, namely, (1) that all ballots received
by mail after 8:00 p.m. on November 3 be segregated and kept ‘in a secure, safe and
sealed container separate from other voted ballots,’ and (2) that all such ballots, if
counted, be counted separately.” 20A84 Administrative Order at 1.
ARGUMENT
1. As the Pennsylvania Democratic Party Respondents informed this Court in
their opposition to RPP’s motion to expedite, segregation of ballots received between
November 3 at 8 p.m. and November 6 at 5 p.m. is appropriate. But the Secretary
has already directed county boards to do just that, and to “separately tally” the
segregated ballots “approved for canvassing.” A.116.

3

RPP asserts that this Court must intervene because there is no guarantee that
the guidance has been followed or will continue in force. That argument is meritless.
Even assuming, as RPP asserts, that the guidance is not binding, there is no reason
to think that county election boards have not complied with it. The Secretary issued
the guidance for an unquestionably legitimate purpose: to preserve this Court’s
jurisdiction to adjudicate the validity of the Pennsylvania Supreme Court’s decision
extending the mail-in ballot received-by deadline. No evident reason exists for a
county board to refuse to follow explicit guidance issued for such a clearly legitimate
purpose, nor does any evidence exist that county boards failed to follow it—and RPP
suggests none.

Given that courts “presume that [public officers] have properly

discharged their official duties” “in the absence of clear evidence to the contrary,” RPP
must offer concrete evidence that county boards would arbitrarily decline to follow
the Secretary’s guidance. See United States v. Chem. Found., 272 U.S. 1, 14-15
(1926); see also U.S. Postal Serv. v. Gregory, 534 U.S. 1, 10 (2001). Instead, RPP
offers only baseless speculation.
The sole purported evidence on which RPP relies is that some county boards of
elections allegedly did not respond to its email requesting confirmation that they
would follow the guidance. But RPP may not manufacture evidence that county
boards are not complying by sending them an email on a one-day turnaround in the
week before Election Day and then crying “gotcha” when some fail to respond. Indeed,
the fact that each of the forty-two boards that did respond confirmed that it was
following the guidance rebuts RPP’s unfounded allegations. And to the extent RPP

4

was legitimately concerned that some boards’ failure to respond suggested that they
planned to disregard the guidance, one would expect RPP to have filed an immediate
(and certainly, pre-Election Day) application for emergency relief in this Court. Its
failure to do so—and its inability to muster a single shred of evidence that any board
has not complied with the guidance—demonstrates that this Court’s intervention is
unjustified.
RPP’s arguments that the Secretary might alter the guidance are similarly
unfounded.

RPP complains that the Secretary’s November 1 guidance directed

counties to begin canvassing the segregated ballots, while the October 28 guidance
directed counties not to begin canvassing “until further direction is received.” As the
quoted language indicates, the November 1 guidance simply provided the further
direction contemplated by the October 28 guidance. RPP suggests no reason to think
that the Secretary would direct county boards to reverse the segregation.
2. The Pennsylvania Democratic Party Respondents respectfully submit that
should the Court order any relief, that relief should be consistent with the November
1 Guidance. The November 1 Guidance provides detailed instructions for how county
boards of elections should treat ballots arriving during the challenged period. In
order to avoid confusion and permit the Commonwealth appropriate leeway over its
conduct of the canvassing process, any order of the Court should be consistent with
the existing guidance.
In particular, any order should permit county boards to continue counting the
segregated ballots, as the administrative order entered by Justice Alito does.

5

Administrative Order at 1 (ordering “that all such ballots, if counted, be counted
separately”). RPP, however, asks that this Court order county boards “not to take
any action related to” these ballots, barring them from counting the ballots.
Application 11. Stopping counting ballots is in no way necessary to “preserve[] the
ability of this Court to render a meaningful judgment” on the validity of the
Pennsylvania Supreme Court’s extension of the mail-in ballot received-by deadline.
Application 11. The November 1 Guidance, like the Administrative Order, ensures
that the challenged ballots will remain segregated and that their counts will not be
added to the counts of ballots arriving before November 3 at 8 p.m. 1 See A.114, 116.
Counting these ballots separately thus does not threaten the ability of this Court to
adjudicate this case and grant effective relief, should it become necessary to do so.
On the other hand, ordering the county boards to stop counting the segregated
ballots would have significant adverse consequences. First, without counting the
ballots, it may be impossible to determine whether this Court’s resolution of this case
would have any effect on any race. To the extent those ballots would not change the
outcome of a race, this case may be moot and, at the very least, the need for the
Court’s review would be substantially lessened. RPP’s insistence that county boards

For that reason, RPP’s assertion that counting the challenged ballots could “cast[] a
cloud upon * * * the legitimacy of [the] election” is baseless. Application 11 (quoting
Bush v. Gore, 531 U.S. 1046, 1046–47 (2000) (Scalia, J., concurring)) (alteration in
RPP Application). Because the challenged ballots are segregated from ballots
received by November 3 at 8 p.m., and will be separately counted, it is difficult to see
how the mere act of counting the challenged ballots could cast any cloud over the
election.

1

6

not count these ballots would threaten this Court’s ability to determine whether it
has jurisdiction and whether it should review the case.
Second, the ballots contain votes for state races that are not implicated in this
case, as RPP’s challenge extends only to votes cast in federal races. State law requires
county boards to provide unofficial returns to the Secretary by 5 p.m. on November
10 and, in certain circumstances, requires the Secretary to order a recount based on
those returns by November 12.

See Statewide Return and Recount Directive

Procedures (Nov. 1, 2020). 2 It is thus critical to the operation of Pennsylvania’s
recount procedures with respect to state races that the Secretary have as accurate as
possible a count of the ballots by next week. RPP’s requested relief would upend that
statutory scheme.

Available
at
https://www.dos.pa.gov/VotingElections/OtherServicesEvents/
VotingElectionStatistics/Documents/2020-11-01-StatewideReturnRecountDirective.
pdf.
2

7

CONCLUSION
For the foregoing reasons, the Court should deny the injunction as
unnecessary. To the extent the Court orders relief, it should issue an order that is
consistent with the November 1 Guidance and that allows ballots to continue to be
counted in a segregated fashion.
Dated: November 6, 2020

Respectfully submitted,
/s/ Donald B. Verrilli, Jr.
Donald B. Verrilli, Jr.
Counsel of Record
Elaine J. Goldenberg
Ginger D. Anders
Rachel G. Miller-Ziegler
Jeremy S. Kreisberg
Munger, Tolles & Olson LLP
601 Massachusetts Ave. NW, Ste. 500E
Washington, DC 20001-5369
(202) 220-1100
Donald.Verrilli@mto.com

Clifford B. Levine
Alex M. Lacey
Dentons Cohen & Grigsby P.C.
625 Liberty Avenue
Pittsburgh, PA 15222-3152
(412) 297-4900
Lazar M. Palnick
1216 Heberton Street
Pittsburgh, PA 15206
(412) 661-3633
Kevin Greenberg
A. Michael Pratt
Adam Roseman
Greenberg Traurig, LLP
1717 Arch Street, Suite 400
Philadelphia, PA 19103
(215) 988-7818

Teresa A. Reed Dippo
Munger, Tolles & Olson LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4000

Counsel for Respondents Pennsylvania Democratic Party, Nilofer Nina Ahmad,
Danilo Burgos, Austin Davis, Dwight Evans, Isabella Fitzgerald, Edward Gainey,
Manuel M. Guzman, Jr., Jordan A. Harris, Arthur Haywood, Malcolm Kenyatta,
Patty H. Kim, Stephen Kinsey, Peter Schweyer, Sharif Street, and Anthony H.
Williams

8

